OFFICE OF AUDIT
REGION 5
CHICAGO, IL




                   City of Flint, MI

         HOME Investment Partnerships Program




2014-CH-1001                           NOVEMBER 15, 2013
                                                        Issue Date: November 15, 2013

                                                        Audit Report Number: 2014-CH-1001


TO: Keith Hernandez, Director of Community Planning and Development, 5FD
    Dane M. Narode, Associate General Counsel for Program Enforcement, CACC



FROM: Kelly Anderson, Regional Inspector General for Audit, Chicago Region, 5AGA

SUBJECT: The City of Flint, MI, Lacked Adequate Controls Over Its HOME Investment
            Partnerships Program


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), results of our review of the City of Flint’s HOME Investment
Partnerships Program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8M, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(312) 913-8684.




                                                 
                                             November 15, 2013
                                             The City of Flint, MI, Lacked Adequate Controls Over
                                             Its HOME Investment Partnerships Program




Highlights
Audit Report 2014-CH-1001


    What We Audited and Why                      What We Found

We audited the City of Flint’s HOME          The City did not ensure that for a rental rehabilitation
Investment Partnerships Program. We          project, (1) Program funds were used in accordance
selected the City based upon our             with its contract with a subrecipient and (2) sufficient
analysis of risk factors related to          documentation was maintained to support the use of
Program grantees in Region 5’s1              funds. It also did not ensure that (1) Program funds
jurisdiction. Our objectives were to         were used for eligible costs within 15 days of being
determine whether the City complied          drawn down from its treasury account and (2) its
with Federal requirements and its own        subrecipient procured all housing rehabilitation
requirements in the administration of its    services through full and open competition. As a
Program. This is the third of three audit    result, it (1) inappropriately used more than $190,000
reports on the City’s Program.               in Program funds and (2) lacked assurance that an
                                             additional $90,000 was used for eligible costs.
    What We Recommend                        Further, the U.S. Treasury paid nearly $5,000 in
                                             unnecessary interest on nearly $304,0002 in Program
                                             funds, which the City disbursed to its subrecipient that
We recommend that HUD require the            was not expended in the required timeframe.
City to (1) reimburse its Program or
HUD, for transmission to the U.S.            The City did not reimburse its treasury account for
Department of the Treasury, from non-        Program funds drawn down and decommit additional
Federal funds more than $195,000; (2)        funds for five owner-occupied rehabilitation projects
provide sufficient supporting                that were later terminated. It also did not (1) maintain
documentation or reimburse its Program       sufficient documentation to support its use of Program
from non-Federal funds more than             funds for a project, (2) ensure that a subrecipient
$107,000; and (3) implement adequate         appropriately procured housing rehabilitation services
procedures and controls to address the       for 14 projects, and (3) accurately report in HUD’s
findings cited in this audit report. We      Integrated Disbursement and Information System the
also recommend that HUD pursue the           status of nine projects. As a result, (1) nearly $103,000
appropriate administrative actions for       in Program funds was not available for eligible
inappropriate certifications and ensure      activities and (2) the City lacked assurance that more
that nearly $103,000 in Program funds        than $17,000 was used appropriately. Further, HUD
is used only for eligible Program costs.     and the City lacked assurance that the project
                                             accomplishments were accurately reported in HUD’s
                                             system.
1
  Region 5 includes the States of Indiana,
Illinois, Ohio, Michigan, Minnesota, and
                                             2
Wisconsin.                                       This amount is not a questioned cost.


                                                        
                            TABLE OF CONTENTS

Background and Objectives                                                                 3

Results of Audit
      Finding 1: The City Did Not Ensure That Its Use of Program Funds for a Rental
                 Rehabilitation Project Complied With Its Contract With a Subrecipient and
                 Federal Requirements                                                      4

      Finding 2: The City Did Not Administer Its Owner-Occupied Rehabilitation Projects in
                 Accordance With Federal Regulations and Its Own Requirements              9

Scope and Methodology                                                                    14

Internal Controls                                                                        16

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use                     18
   B. Auditee Comments and OIG’s Evaluation                                              19
   C. Applicable Requirements                                                            26




                                            2
                     BACKGROUND AND OBJECTIVES

The Program. Authorized under Title II of the Cranston-Gonzalez National Affordable Housing
Act, as amended, the HOME Investment Partnerships Program is funded for the purpose of
increasing the supply of affordable standard rental housing; improving substandard housing for
existing homeowners; assisting new home buyers through acquisition, construction, and
rehabilitation of housing; and providing tenant-based rental assistance.

The City. Organized under the laws of the State of Michigan, the City of Flint is governed by a
mayor and a nine-member council, elected to 4-year terms. The City designated its Department of
Community and Economic Development as the lead agency to administer its Program. The overall
mission of the Department is to strengthen the economic well-being of the City by promoting
affordable housing, neighborhood revitalization, business development, and job growth. The City’s
Program records are located at 1101 South Saginaw Road, Flint, MI.

The following table shows the amount of Program funds the U.S. Department of Housing and
Urban Development (HUD) allocated to the City for Program years 2007 through 2010.

                                    Program         Program
                                      year           funds
                                      2007           1,027,094
                                      2008           1,173,131
                                      2009           1,306,202
                                      2010           1,301,500
                                     Total          $4,807,927

HUD did not award the City Program funds in Program year 2006 and reduced the City’s award
of Program funds for Program year 2007 by more than $100,000 due to the City’s failure to
commit nearly $156,000 in Program funds by June 30, 2005, to comply with HUD’s 24-month
commitment deadline and to disburse more than $1.2 million in Program funds by October 31,
2005, to comply with HUD’s 5-year disbursement deadline.

Our objectives were to determine whether the City complied with Federal requirements and its
own requirements in the administration of its Program. Specifically, our objectives were to
determine whether the City ensured compliance with applicable requirements in (1) its use of
Program funds for a rental rehabilitation project and owner-occupied rehabilitation projects, (2)
the reimbursement of its HOME investment trust fund treasury account for Program funds that it
drew down and decommitment of Program funds for owner-occupied rehabilitation projects that
were later terminated, (3) subrecipients’ procurement of housing rehabilitation services for the
rental rehabilitation project and owner-occupied rehabilitation projects, and (4) its reporting of
the status of owner-occupied rehabilitation projects in HUD’s Integrated Disbursement and
Information System. This is the third of three audits of the City’s Program (OIG audit report
numbers 2009-CH-1020 and 2011-CH-1001, dated September 30, 2009, and October 13, 2010,
respectively).


                                                3
                                     RESULTS OF AUDIT

Finding 1: The City Did Not Ensure That Its Use of Program Funds for
   a Rental Rehabilitation Project Complied With Its Contract With a
                Subrecipient and Federal Requirements
The City did not ensure that for a six-unit rental rehabilitation project (1) Program funds were
used in accordance with its contract with a subrecipient and (2) sufficient documentation was
maintained to support the use of funds. It also did not ensure that (1) Program funds were used
for eligible costs within 15 days of being drawn down from its treasury account and (2) its
subrecipient procured all housing rehabilitation services through full and open competition.
These weaknesses occurred because the City lacked adequate procedures and controls to ensure
that it used Program funds for the project in accordance with its contract with the subrecipient and
Federal requirements. As a result, it (1) inappropriately used more than $190,000 in Program
funds and (2) lacked assurance that an additional $90,000 was used for eligible costs. Further,
the U.S. Treasury paid nearly $5,000 in unnecessary interest on nearly $304,000 in Program
funds, which the City disbursed to its subrecipient that was not expended in the required
timeframe.


    The City Did Not Use Program
    Funds in Accordance With Its
    Contract and Lacked Sufficient
    Supporting Documentation

                    We reviewed a project for which the City drew down nearly $458,000 in Program
                    funds from October 2007 through October 2012.

                    Contrary to HUD’s regulations at 24 CFR (Code of Federal Regulations) 92.504
                    and the City’s contract3 with Flint Neighborhood Improvement and Preservation
                    Project,4 the City inappropriately drew down and disbursed $190,457 in Program
                    funds to Flint Project to pay for housing rehabilitation services for a six-unit
                    project. The contract stated that the funds were to be used to provide housing
                    rehabilitation services for 18 single-family rental rehabilitation projects.

                    Further, the City was unable to support its use of $90,205 in Program funds that
                    was drawn down for the project. Specifically, it lacked sufficient documentation
                    to support (1) $4,329 in Program funds disbursed to Flint Project was used for
                    eligible costs and (2) that $85,876 in Program funds was disbursed to Flint Project
                    and used for eligible costs as required by HUD’s regulations at 24 CFR 85.20(b)
                    and Federal regulations at appendix A, section C.1, of 2 CFR Part 225.
3
    Contract number 07-077
4
    A nonprofit subrecipient

                                                     4
                                                       
    The City Disbursed Program
    Funds to a Subrecipient That
    Were Not Expended in the
    Required Timeframe

                    Contrary to HUD’s regulations at 24 CFR 92.502(c)(2) and the City’s contracts5
                    with Flint Project, the City inappropriately drew down and disbursed nearly
                    $304,000 in Program funds to Flint Project more than 15 days before the funds
                    were used. Although, the City drew down the funds from its treasury account on
                    June 30, 2008, the funds were not used for eligible costs until 31 to 302 days later.
                    Therefore, the U.S. Treasury paid nearly $5,000 in unnecessary interest on the
                    funds. The following table shows the use dates, the balance of Program funds
                    before use, the amount of funds used, and the amount of interest the U.S. Treasury
                    paid6 after the 15th day after the drawdown (for the first use on July 31, 2008) or
                    the previous use for the funds that the City inappropriately disbursed to Flint
                    Project.

                                                     Balance of                  Program           Interest
                                 Date of use       Program funds                funds used           paid
                                July 31, 2008            $303,900                   $42,300            $574
                               August 13, 2008            261,600                    43,200             419
                             September 18, 2008           218,400                    28,800             920
                              October 23, 2008            189,600                    21,600             788
                             November 18, 2008            168,000                    20,700             536
                              January 21, 2009            147,300                     9,900             843
                              February 18, 2009           137,400                    34,200             385
                               March 25, 2009             103,200                    38,700             364
                                April 9, 2009              64,500                    19,526              94
                                April 22, 2009             44,974                    22,484              59
                                April 28, 2009             22,490                    22,490              14
                                             Totals                                $303,900          $4,996

                    Further in an application and certificate for payment, the contractor’s vice
                    president and an architect from an architectural firm hired by Flint Project
                    inappropriately certified on June 24 and June 25, 2008, respectively, that the
                    contractor had completed its housing rehabilitation work on the project. In
                    addition, in a financial and activity report, Flint Project’s executive director
                    inappropriately certified that the financial and activity report and necessary
                    supporting documentation were consistent with contract conditions and the City’s

5
    Contract numbers 07-037 and 07-077
6
    We were conservative in our determination of the amount of unnecessary interest that the U.S. Treasury paid. We
    based our calculation on the 10-year U. S. Treasury rate using simple interest on the Program funds from after the
    15th day on which the funds were drawn down to the date on which the funds were used for eligible expenses by
    Flint Project.


                                                            5
                                                             
           standard operating procedures for subrecipients funded with Community
           Development Block Grant, Emergency Shelter Grant, and Program funds. Both
           the application and certificate for payment and the financial and activity report
           were submitted with Flint Project’s payment request to the City.

The City Did Not Ensure That
All Housing Rehabilitation
Services Were Procured
Through Full and Open
Competition

           The City did not ensure that Flint Project fully complied with HUD’s regulations
           at 24 CFR 84.43 and 84.44 and Federal regulations at 2 CFR 215.43 regarding the
           procurement of housing rehabilitation services for the project. The architectural
           firm hired by Flint Project requested sealed bids for the housing rehabilitation
           work. The sealed bids were to be based on work specifications and drawings
           prepared by the architectural firm. However, the work specifications and
           drawings did not always sufficiently detail the services to be provided. The work
           specifications and drawings generally lacked an accurate description of the
           technical requirements, including measurements, dimensions, or other specific
           details related to the services. Five companies submitted sealed bids, and on
           January 16, 2008, the City and Flint Project opened the bids. The lowest bid for
           the housing rehabilitation work was $237,800.

           Further, on February 1, 2008, Flint Project and the architectural firm requested
           that the contractor that submitted the lowest bid provide quotes for the following
           changes to and additional items that were not included in the work specifications:
           (1) General Electric rather than Tappan appliances; (2) under-cabinet hanging
           microwaves rather than hood fans above stoves; (3) stoves with ceramic tops; (4)
           dishwashers including installation, plumbing, and electrical; (5) 1-foot square
           vinyl tile rather than sheet vinyl; (6) oak edges to kitchen counters; (7) stackable
           washers and dryers, including electrical, plumbing, carpentry, drywall, painting,
           and trim work; (8) air-conditioning units, including electrical upgrade; and (9) site
           work and landscaping. However, the request did not sufficiently detail the
           housing rehabilitation services to be provided. On February 4, 2008, the
           contractor provided a quote for the changes and additional items totaling $73,681.

           On June 2, 2008, the owner entered into the construction contract with the
           contractor for $330,000 based on the low bid of nearly $238,000, the additional
           quote of nearly $74,000, and additional bond and appliance allowances for
           $18,519. Therefore, Flint Project awarded $92,200 (nearly $74,000 from the
           additional quote and nearly $19,000 for the additional bond and appliance
           allowances) for housing rehabilitation services without free and open competition.
           Further, the construction contract was 38.7 percent more than the initial low bid.



                                             6
                                              
             In addition, five change orders from January 2009 through July 2010 increased
             the construction contract by a net of $14,093. Four of the change orders increased
             the construction contract by more than $30,000. The fifth change order reduced
             the construction contract by more than $16,000. However, the change orders did
             not sufficiently detail the housing rehabilitation services to be provided or
             removed. Further, the fifth change order included the removal of more than
             $15,000 for appliances that were part of the construction contract. This reduction
             was based on a new quote the contractor obtained for appliances in April 2009,
             rather than amounts included in the contractor’s low bid, the contractor’s quote on
             February 4, 2008, or the additional bond and appliance allowance. Neither the
             work specifications nor the request, dated February 1, 2008, sufficiently detailed
             the appliances to be provided. Therefore, it could not be determined whether the
             contract reduction of more than $15,000 for appliances was reasonable.

The City Lacked Adequate
Procedures and Controls

             The weaknesses described above occurred because the City lacked adequate
             procedures and controls to ensure that it used Program funds for the project in
             accordance with Federal requirements and the City’s contracts with Flint Project.
             The former Program manager of the City’s Department of Community and
             Economic Development said that the City’s former mayor wanted the project
             completed and the former director of the Department instructed staff to use funds
             associated with the City’s existing contracts with Flint Project to complete the
             project.

             According to the former Program manager, many employees worked on the
             project since the project began. However, the City could not provide a list of the
             employees who worked on the project. Therefore, the former Program manager
             could not explain why the City (1) lacked sufficient documentation to support its
             use of funds, (2) inappropriately drew down and disbursed funds that were not
             used for eligible costs in a timely manner, and (3) did not ensure that Flint Project
             fully complied with Federal regulations regarding the procurement of housing
             rehabilitation services.

Conclusion

             The City lacked adequate procedures and controls to ensure that it used Program
             funds for the project in accordance with Federal requirements and its contract with
             a subrecipient. As a result, it (1) inappropriately used more than $190,000 in
             Program funds and (2) lacked assurance that an additional $90,000 was used for
             eligible costs. Further, the U.S. Treasury paid nearly $5,000 in unnecessary
             interest on nearly $304,000 in Program funds, which the City disbursed to Flint
             Project that was not expended in the required timeframe.


                                               7
                                                 
Recommendations

          We recommend that the Director of HUD’s Detroit Office of Community
          Planning and Development require the City to

          1A.     Reimburse its Program from non-Federal funds $190,457, which the City
                  inappropriately drew down and disbursed to Flint Project for the project.

          1B.     Support or reimburse its Program from non-Federal funds $90,205, as
                  appropriate, for the City’s use of Program funds, which it lacked sufficient
                  documentation to support.

          1C.     Reimburse HUD from non-Federal funds, for transmission to the U.S.
                  Treasury, $4,996 for the unnecessary interest the U.S. Treasury paid on
                  the Program funds, which the City disbursed to Flint Project, that were not
                  used for eligible costs within 15 days of being drawn down from its
                  treasury account.

          1D.     Implement adequate procedures and controls regarding its rental
                  rehabilitation projects to ensure that (1) it disburses Program funds in
                  accordance with HUD’s regulations and written agreements, (2) it
                  maintains sufficient documentation to support its use of Program funds,
                  (3) work specifications are completed that sufficiently detail the housing
                  rehabilitation services to be provided, and (4) housing rehabilitation
                  services are procured through free and open competition.

          We also recommend that HUD’s Associate General Counsel for Program
          Enforcement

          1E.     Pursue the appropriate administrative actions against the contractor’s vice
                  president and architectural firm’s architect for inappropriately certifying
                  that the contractor had completed its housing rehabilitation work on the
                  project.




                                            8
                                             
Finding 2: The City Did Not Administer Its Owner-Occupied
 Rehabilitation Projects in Accordance With Federal Regulations and Its
                            Own Requirements
The City did not reimburse its treasury account for Program funds drawn down and decommit
additional funds for five owner-occupied rehabilitation projects that were later terminated. It
also did not (1) maintain sufficient documentation to support its use of Program funds for a
project, (2) ensure that a subrecipient appropriately procured housing rehabilitation services for
14 projects, and (3) accurately report in HUD’s system the status of 9 projects. These
weaknesses occurred because the City lacked adequate procedures and controls for its projects to
ensure that Federal regulations and its standard operating procedures for subrecipients funded
with Community Development Block Grant, Emergency Shelter Grant, and Program funds were
appropriately followed. As a result, (1) nearly $103,000 in Program funds was not available for
eligible activities and (2) the City lacked assurance that more than $17,000 was used
appropriately. Further, HUD and the City lacked assurance that the project accomplishments
were accurately reported in HUD’s system.


    The City Did Not Reimburse Its
    Treasury Account for Program
    Funds Disbursed for
    Terminated Projects

                    We reviewed 7 projects that the City reported in HUD’s system as complete from
                    June 1, 2009, through January 12, 2011, and the 20 projects that were open in
                    HUD’s system as of January 12, 2011. The City drew down more than $1 million
                    in Program funds for the 27 projects.

                    The City committed nearly $103,000 and drew down nearly $90,000 in Program
                    funds for four of Flint Project’s and one of Salem Housing Community
                    Development Corporation’s7 projects that were later terminated. The five projects
                    were for four homes. The funds were drawn down for rehabilitation expenses
                    ($53,738), administrative salaries ($18,197), and soft costs ($16,021). The
                    following table shows the project numbers; the amount of funds committed; and
                    the amount of funds used for rehabilitation expenses, administrative salaries, and
                    soft costs for each project.




7
    A nonprofit subrecipient

                                                    9
                                                      
                                         Program 
                         Project          funds         Rehabilitation     Administrative                       Program funds 
                         number         committed         expenses           salaries           Soft costs          used
                       1240/18938           $67,800           $53,278              $4,205             $8,629          $66,112
                          2046               20,000                460             10,706              4,714           15,880
                          2061               15,000                                 3,286              2,598            5,884
                          2101                   80                                                        80              80
                          Totals           $102,880            $53,738             $18,197           $16,021          $87,956


                     The City lacked sufficient documentation to support that the remaining $1,688
                     ($89,644 - $87,956) in Program funds was disbursed to Salem for project number
                     1240 and used for eligible costs.

                     Flint Project terminated (1) project number 1893 in May 2009 since it could not
                     reach the homeowner to complete the housing rehabilitation work that was started
                     by Salem and (2) project numbers 2046 and 2061 in September and July 2009,
                     respectively, because the homeowners decided that they did not want liens placed
                     on their properties. It also terminated project number 2101 in August 2009 due to
                     the homeowner’s failing to provide income documentation by the requested
                     deadline. According to Flint Project’s program director, in May 2009, she
                     informed the City that Flint Project had terminated project number 1893. Further,
                     in May 2010, Flint Project’s program coordinator informed the City that it had
                     terminated project numbers 2046, 2061, and 2101.

                     However, contrary to HUD’s regulations at 24 CFR 92.503(b)(2) and (3), the City
                     did not reimburse its treasury account for the $89,644 in Program funds that it
                     drew down for the five terminated projects (the nearly $88,000 in Program funds
                     used for the five projects plus the nearly $1,700 in funds that the City lacked
                     sufficient documentation to support). As a result of our audit, the City had
                     transferred the $61,903 in Program funds drawn down for project number 1240 to
                     project number 1893 as of July 19, 2011, and canceled project number 1240 in
                     HUD’s system on September 13, 2011.

                     On August 31, 2012, the City agreed to Program grant reductions for the four
                     remaining projects totaling nearly $90,000. Therefore, HUD reduced the City’s
                     Program grants by the agreed-upon amount on January 16, 2013, and reallocated
                     the Program funds to other participating jurisdictions through its formula
                     allocation for Program year 2013. Further, as of April 24, 2013, the City had
                     decommited the $13,236 in Program funds for project numbers 2046 ($4,120) and
                     2061 ($9,116) and canceled project numbers 1893, 2046, 2061, and 2101 in
                     HUD’s system.




8
    Salem did not complete the housing rehabilitation work on the home for project number 1240. The City transferred the project
     to Flint Project and created project number 1893 in HUD’s system to complete the housing rehabilitation work on the home for
     project number 1240.

                                                                10
                                                                  
     The City Lacked Sufficient
     Documentation To Support Its
     Use of More Than $17,000 in
     Program Funds

                    Contrary to HUD’s regulations at 24 CFR 85.20(b) and Federal regulations at
                    appendix A, section C.1, of 2 CFR Part 225, the City could not provide sufficient
                    documentation to support $17,382 in Program funds that it drew down for project
                    number 145. The City canceled project number 145 and reprogrammed the funds
                    for project number 1747.9

     The City Did Not Accurately
     Report in HUD’s System the
     Status of Projects

                    The City did not accurately report the status of nine rehabilitation projects in
                    HUD’s system as required by 24 CFR 92.2 and 92.502(d)(1). As of January 12,
                    2011, it had not reported seven projects (project numbers 145, 1244, 1747, 1891,
                    1892, 1974, and 1975)10 as completed in HUD’s system, although Flint Project
                    completed the projects from January 2007 through April 2010. Further, it
                    reported another two projects (project numbers 1236 and 1240) as completed on
                    February 1, 2007, although neither Salem nor the City had completed the projects
                    as of January 12, 2011.

                    As a result of our audit, the City canceled project numbers 145, 1240, and 1244
                    on September 13, 2011, and project number 1892 on April 13, 2012, and reported
                    as completed in HUD’s system project number 1747 on October 13, 2011, and
                    project numbers 1891, 1974, and 1975 on May 26, 2012.

     The City Did Not Ensure That a
     Subrecipient Procured Housing
     Rehabilitation Services
     Through Full and Open
     Competition

                    Contrary to HUD’s regulations at 24 CFR 84.43, Federal regulations at 2 CFR
                    215.43, and the City’s standard operating procedures, the City did not ensure that
                    Flint Project procured housing rehabilitation services through full and open
                    competition. It did not ensure that Flint Project obtained an adequate number of
                    price or bid quotations from construction contractors for 14 of the projects
                    reviewed. Flint Project solicited bids from only 2 construction contractors for 12
                    of the projects. Further, Flint Project obtained only one bid for six projects and
9
    The City inappropriately entered data into HUD’s system for a project under project numbers 145 and 1747.
10
     The City inappropriately entered data into HUD’s system for a project under project numbers 1244 and 1891.

                                                         11
                                                            
                 two bids for another eight projects although the City’s standard operating
                 procedures required subrecipients to obtain at least three bids. In addition, it did
                 not advertise for bids in the Flint Journal for five projects for which the
                 rehabilitation contracts were over $25,000. The following table shows the project
                 numbers and the number of bids obtained for each project and the projects for
                 which Flint Project did not advertise for bids.

                                              Project          Number           No
                                            number(s)11        of bids     advertisement
                                               1747               2
                                           1748 and 2233          2               X
                                               1797               2
                                               1798               1
                                           1891 and 2129          1               X
                                           1892 and 2130          2               X
                                           1894 and 2131          1               X
                                               1895               2
                                               1903               2
                                               1960               1
                                               1974               2
                                               1976               2
                                               2041               1
                                               2050               1               X


 The City Lacked Adequate
 Procedures and Controls

                 The weaknesses described above occurred because the City lacked adequate
                 procedures and controls for its projects to ensure that it complied with Federal
                 regulations and its standard operating procedures.

                 The former director of the City’s Department of Community and Economic
                 Development said that she did not know why the City (1) did not reimburse its
                 treasury account for Program funds drawn down and decommit Program funds for
                 the terminated projects, (2) did not accurately report in HUD’s system the status
                 of projects, and (3) did not ensure that the subrecipient procured housing
                 rehabilitation services through full and open competition. However, regarding the
                 procurement of services, the City will no longer use subrecipients for
                 rehabilitation projects.



11
  The City inappropriately entered data into HUD’s system for four projects under four different project numbers.
As a result of our audit, the City canceled project numbers 1892, 1894, 2129, and 2233 and reprogrammed the
applicable Program funds to project numbers 2130, 2131, 1891, and 1748, respectively.


                                                        12
                                                          
             The Department’s former Program manager said that the Department had moved
             its offices many times and had not been able to locate all of the supporting
             documentation for some of the older projects.

Conclusion

             The City lacked adequate procedures and controls for its projects to ensure that it
             complied with Federal regulations and its standard operating procedures. As a
             result, (1) nearly $103,000 in Program funds was not available for eligible
             activities and (2) the City lacked assurance that more than $17,000 was used
             appropriately. Further, HUD and the City lacked assurance that the project
             accomplishments were accurately reported in HUD’s system.

Recommendations

             We recommend that the Director of HUD’s Detroit Office of Community
             Planning and Development

             2A. Ensure that participating jurisdictions use the $89,644 in Program funds,
                 reflecting HUD’s reduction of the City’s Program grants and reallocation of
                 the funds to other participating jurisdictions, only for eligible costs.

             2B. Ensure that the City uses the $13,236 in Program funds, which it
                 decommited in HUD’s system for project numbers 2046 and 2061, for
                 eligible costs.

             We recommend that the Director of HUD’s Detroit Office of Community
             Planning and Development require the City to

             2C. Support or reimburse its Program $17,382 for the funds used for
                 unsupported costs associated with project numbers 145 and 1747.

             2D. Cancel rehabilitation project number 1236 in HUD’s system.

             2E. Implement adequate procedures and controls for its projects to ensure that
                 Program funds are used in accordance with Federal requirements,
                 accomplishments are accurately reported in HUD’s system, and housing
                 rehabilitation services are procured through full and open competition.




                                               13
                                                 
                          SCOPE AND METHODOLOGY

We performed our audit work from October 2010 through August 2013 at the City’s offices
located at 1101 South Saginaw Road, Flint, MI, and HUD’s Chicago regional office located at 77
West Jackson Boulevard, Chicago, IL. The audit covered the period July 2009 through July
2010 and was expanded as determined necessary.

To accomplish our objectives, we reviewed

               Applicable laws; Federal regulations at 2 CFR Parts 215, 225, and 230; HUD’s
                regulations at 24 CFR Parts 84, 85, and 92; HUD’s “Building HOME: A Program
                Primer”; Office of Community Planning and Development Notices 96-9, 97-11, 01-
                13, and 06-01; and HUD’s HomeFires, volume 5, number 2, and volume 6, number
                1.

               The City’s accounting records, annual audited financial statements for fiscal years
                2009 and 2010, data from HUD’s system, activity files, computerized databases,
                policies, procedures, consolidated plans from 2005 through 2016, action plans for
                2008 through 2010, consolidated annual performance and evaluation reports for
                2009 through 2011, and organizational chart.

               HUD’s files for the City.

We also interviewed the City’s employees, Flint Project’s director, Salem’s director, and HUD’s
staff.

Finding 1

We reviewed a rental rehabilitation project for which the City drew down nearly $458,000 in
Program funds for Flint Project from October 2007 through October 2012. The project was
selected to determine whether the City complied with Federal requirements in its use of Program
funds.

Finding 2

We reviewed the 7 owner-occupied rehabilitation projects the City reported in HUD’s system as
complete from June 1, 2009, through January 12, 2011, and the 20 projects that were open in
HUD’s system as of January 12, 2011. The City drew down more than $1 million in Program
funds from April 1996 through November 2012 for the 27 projects. The projects were selected
to determine whether the City complied with Federal requirements in its use of Program funds.

We relied in part on data in HUD’s system. Although we did not perform a detailed assessment
of the reliability of the data, we performed minimal levels of testing and found the data to be
adequately reliable for our purposes.


                                                14
                                                   
We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               15
                                                 
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                     Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

                     Reliability of financial reporting – Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

                     Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 16
                                                   
Significant Deficiencies

             Based on our review, we believe that the following items are significant
             deficiencies:

             The City lacked adequate procedures and controls to ensure that

                Federal requirements and its Program contract with a subrecipient were
                 followed in the (1) use of Program funds and (2) procurement of housing
                 rehabilitation services for a rental rehabilitation project (see finding 1).

                Federal regulations and its standard operating procedures were followed in the
                 (1) reimbursement of the City’s treasury account for Program funds drawn
                 down and the decommitment of Program funds for terminated owner-
                 occupied rehabilitation projects, (2) reporting on the status of projects in
                 HUD’s system, and (3) procurement of housing rehabilitation services for
                 projects (see finding 2).




                                              17
                                                 
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE


         Recommendation                                              Funds to be put
             number            Ineligible 1/        Unsupported 2/   to better use 3/
               1A                   $190,457
               1B                                          $90,205
               1C                       4,996
               2A                                                           $89,644
               2B                                                            13,236
               2C                                           17,382
              Totals                $195,453              $107,587         $102,880


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, implementation of our recommendations
     will ensure that Program funds are used according to HUD’s regulations.




                                             18
                                                 
Appendix B

            AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation       Auditee Comments




Comment 1




                             19
                               
Ref to OIG Evaluation   Auditee Comments




Comments 2, 3,
 and 4




Comment 2



Comment 5
Comment 6




Comments 5
 and 6




                         20
                           
Ref to OIG Evaluation   Auditee Comments




Comment 4




Comment 7

Comment 8




Comments 4
 and 9




Comments 10
 and 11




Comments 10
 and 12




                         21
                           
Ref to OIG Evaluation   Auditee Comments




Comments 13
 and 14
Comments 6
 and 14


Comments 13
 and 14




Comment 15




Comment 16

Comment 17




                         22
                           
                      OIG’s Evaluation of Auditee Comments

Comment 1   We provided the chief officer of the City’s Department of Community and
            Economic Development the discussion draft audit report for our audit of the
            City’s Program on September 13, 2013.

Comment 2   Contrary to HUD’s regulations at 24 CFR 92.504 and the City’s contract with
            Flint Project, the City inappropriately drew down and disbursed more than
            $190,000 in Program funds to Flint Project to pay for housing rehabilitation
            services for a six-unit project. The contract stated that the funds were to be
            used to provide housing rehabilitation services for 18 single-family rental
            rehabilitation projects.

Comment 3   The recommendation that the Director of HUD’s Detroit Office of Community
            Planning and Development require the City to reimburse its Program from non-
            Federal funds more than $190,000, which the City inappropriately drew down
            and disbursed to Flint Project for the project, does not concern the City’s
            drawing down and disbursement of nearly $304,000 in Program funds to Flint
            Project more than 15 days before the funds were used.

Comment 4   Contrary to HUD’s regulations at 24 CFR 92.502(c)(2) and the City’s contracts
            with Flint Project, the City inappropriately drew down and disbursed nearly
            $304,000 in Program funds to Flint Project more than 15 days before the funds
            were used. Although, the City drew down the funds from its treasury account
            on June 30, 2008, the funds were not used for eligible costs until 31 to 302 days
            later. Therefore, the U.S. Treasury paid nearly $5,000 in unnecessary interest
            on the funds.

Comment 5   The City was unable to support its use of more than $90,000 in Program funds
            that was drawn down for the project. It lacked sufficient documentation to
            support that (1) more than $4,000 in Program funds disbursed to Flint Project
            was used for eligible costs and (2) nearly $86,000 in Program funds was
            disbursed to Flint Project and used for eligible costs as required by HUD’s
            regulations at 24 CFR 85.20(b) and Federal regulations at appendix A, section
            C.1, of 2 CFR Part 225.

Comment 6   The check numbers that we included in our request for canceled checks was
            based on the information that we obtained from the City’s files. We also
            requested documentation to support the disbursements of Program funds it drew
            down for the projects. The City did not provide sufficient documentation to
            support the disbursements.

Comment 7   The Program policies and procedures manual that the City provided was not
            dated and the section for rental rehabilitation was blank. Further, the table of
            contents stated that (1) appendix G1 contained annual compliance procedures
            for monitoring Program units, (2) appendix G2 contained a rental project file

                                           23
                                             
             checklist, (3) appendix G3 contained a Program rental compliance review
             checklist, and (4) appendix G4 contained a tenant income verification and
             tracking report. However, appendixes G1 and G2 contained the first-time
             homebuyers application review process and downpayment assistance program
             administration procedures, respectively, and the manual did not include
             appendixes G3 and G4.

Comment 8    The City lacked adequate procedures and controls to ensure that it used Program
             funds for the project in accordance with Federal requirements and the City’s
             contracts with Flint Project.

Comment 9    In an application and certificate for payment, the contractor’s vice president and
             an architect from an architectural firm that was hired by Flint Project
             inappropriately certified on June 24 and June 25, 2008, respectively, that the
             contractor had completed its housing rehabilitation work on the project. The
             application and certificate for payment was submitted with Flint Project’s
             payment request to the City.

Comment 10   Contrary to HUD’s regulations at 24 CFR 92.503(b)(2) and (3), the City did not
             reimburse its treasury account nearly $90,000 in Program funds that it drew
             down for the five terminated owner-occupied rehabilitation projects. As a result
             of our audit, the City had transferred nearly $62,000 in Program funds drawn
             down for project number 1240 to project number 1893 as of July 19, 2011, and
             canceled project number 1240 in HUD’s system on September 13, 2011.

Comment 11   On August 31, 2012, the City agreed to Program grant reductions for the four
             remaining projects totaling nearly $90,000. Therefore, HUD reduced the City’s
             Program grants by the agreed- upon amount on January 16, 2013, and
             reallocated the Program funds to other participating jurisdictions through its
             formula allocation for Program year 2013.

Comment 12   As of April 24, 2013, the City had decommited more than $13,000 in Program
             funds for project numbers 2046 (more than $4,000) and 2061 (more than
             $9,000) and canceled the project numbers in HUD’s system.

Comment 13   Contrary to HUD’s regulations at 24 CFR 85.20(b) and Federal regulations at
             appendix A, section C.1, of 2 CFR Part 225, the City could not provide
             sufficient documentation to support more than $17,000 in Program funds that it
             drew down for project number 145. The City canceled project number 145 and
             reprogrammed the funds for project number 1747.

Comment 14   Checks for project number 145 were not included in our request for canceled
             checks. The Program manager assistant of the City’s Department of
             Community and Economic Development said that she was unable to locate the
             project file and accounting records for project number 145.



                                            24
                                              
Comment 15   OIG audit report number 2009-CH-1020 did not include project number 1236 as
             a duplicate activity. However, finding 3 in OIG audit report number 2011-CH-
             1001 did include project number 1236 as one of the activities for which the City
             inappropriately entered activity data into HUD’s system for 62 properties under
             2 or more activity numbers for a total of 130 activities. We recommended that
             the Acting Director of HUD’s Detroit Office of Community Planning and
             Development require the City to cancel 69 of the 130 activities in which it
             inappropriately entered activity data into HUD’s system for 62 properties under
             2 or more activity numbers. We did not specifically recommend that Project
             number 1236 be canceled. In finding 2 of this report, we state that the City
             reported project number 1236 as completed on February 1, 2007, although
             neither Salem nor the City had completed the project as of January 12, 2011.
             As of August 27, 2013, the status in HUD’s system for project number 1236
             was completed.

Comment 16   The Program policies and procedures manual that the City provided was not
             dated and the section for owner-occupied rehabilitation does not appear to be
             finalized. Further, the table of contents stated that appendix F1 contained
             owner-occupied production procedures. However, appendix F1 was blank.

Comment 17   The City lacked adequate procedures and controls for its projects to ensure that it
             complied with Federal regulations and its own standard operating procedures.




                                            25
                                              
Appendix C

                             APPLICABLE REQUIREMENTS

Findings 1 and 2
HUD’s regulations at 24 CFR 84.27 state that allowable costs for nonprofit organizations will be
determined in accordance with cost principles contained in Office of Management and Budget
Circular A-122. Section 24 CFR 84.43 states that all procurement transactions must be
conducted in a manner that provides, to the maximum extent possible, free and open
competition. Awards should be made to the bidder or offeror with the bid or offer that is
responsive to the solicitation and is most advantageous to the recipient, with price, quality, and
other factors considered. Solicitations must clearly set forth all requirements that the bidder or
offeror must fulfill to be evaluated by the recipient.

HUD’s regulations at 24 CFR 85.20(b)(2) require grantees and subgrantees to maintain records
that adequately identify the source and application of funds provided for financially assisted
activities. These records must contain information pertaining to grant and subgrant awards and
authorizations, obligations, unobligated balances, assets, liabilities, outlays or expenditures, and
income. Section 85.20(b)(6) states that accounting records must be supported by such source
documentation as canceled checks, paid bills, payrolls, time and attendance records, and contract
and subgrant award documents.

HUD’s regulations at 24 CFR 85.22(b) state that allowable costs for State, local, or Indian tribal
governments will be determined in accordance with cost principles contained in Office of
Management and Budget Circular A-87 and private nonprofit organizations will be determined in
accordance with cost principles contained in Office of Management and Budget Circular A-122.

HUD’s regulations at 24 CFR 92.504(a) state that a participating jurisdiction is responsible for
managing the day-to-day operations of its Program, ensuring that Program funds are used in
accordance with all Program requirements and written agreements, and taking appropriate action
when performance problems arise. The use of subrecipients or contractors does not relieve the
participating jurisdiction of this responsibility.

HUD’s regulations at 24 CFR 92.505(a) state that the requirements of Office of Management and
Budget Circular A-87 and sections 85.20 and 85.22 of 24 CFR Part 85 are applicable to a
participating jurisdiction that is a government entity. Section 92.505(b) states that the
requirements of Office of Management and Budget Circular A-122 and 24 CFR 84.27 are
applicable to nongovernmental nonprofit subrecipients that receive Program funds.

Federal regulations at 2 CFR 215.21(b)(6)12 state that recipients’ financial management systems
must include written procedures for determining the reasonableness, allocability, and
allowability of costs in accordance with the provisions of the applicable Federal cost principles

12
     Office of Management and Budget Circular A-110 was relocated to 2 CFR Part 215.

                                                        26
                                                          
and the terms and conditions of the award and accounting records, including cost accounting
records, that are supported by source documentation. Section 215.40 states that the procurement
standards in sections 215.41 through 215.48 are to be used by recipients in establishing
procedures for the procurement of supplies and other expendable property, equipment, real
property, and other services with Federal funds. Section 215.43 states that all procurement
transactions must be conducted in a manner to provide, to the maximum extent possible, open
and free competition.

Appendix A, section C.1, of Federal regulations at 2 CFR Part 22513 requires all costs to be
necessary, reasonable, and adequately documented. Section C.2 states that a cost is reasonable
if, in its nature or amount, it does not exceed that which would be incurred by a prudent person
under the circumstances prevailing at the time the decision was made to incur the cost.

Appendix A, section A.2, of Federal regulations at 2 CFR Part 23014 requires all costs to be
reasonable and adequately documented. Section A.3 states that a cost is reasonable if, in its
nature and amount, it does not exceed that which would be incurred by a prudent person under
the circumstances prevailing at the time the decision was made to incur the costs. In determining
the reasonableness of a given cost, consideration should be given to whether the individuals
concerned acted with prudence in the circumstances, considering their responsibilities to the
organization; its members, employees, and clients; the public at large; and the Federal
Government.

Finding 1
HUD’s regulations at 24 CFR 84.44 state that all recipients must establish written procurement
procedures. The procedures should provide, at a minimum, that solicitations for goods and
services should provide for a clear and accurate description of the technical requirements for the
material, product, or service to be procured and a description, whenever practicable, of technical
requirements in terms of functions to be performed or performance required, including the range
of acceptable characteristics or minimum acceptable standards.

HUD’s regulations at 24 CFR 92.502(c)(2) state that Program funds drawn down from a
participating jurisdiction’s treasury account must be expended for eligible costs within 15 days.
Any interest earned on the Program funds within the 15-day period may be retained by the
participating jurisdiction as Program funds. Any Program funds that are drawn down and not
expended for eligible costs within 15 days must be returned to HUD for deposit in the
participating jurisdiction’s treasury account. Interest earned on Program funds after the 15 days
belongs to the United States and must be remitted to HUD at least quarterly, except that a
participating jurisdiction may retain interest up to $100 per year for administrative expenses.

HUD’s regulations at 24 CFR 92.504(b) state that before disbursing any Program funds to any
entity, the participating jurisdiction must enter into a written agreement with that entity. Section
92.504(c)(2)(i) states that the written agreement between the participating jurisdiction and the
subrecipient must describe the use of the Program funds, including the tasks to be performed, a
13
     Office of Management and Budget Circular A-87 was relocated to 2 CFR Part 225.
14
     Office of Management and Budget Circular A-122 was relocated to 2 CFR Part 230.

                                                        27
                                                          
schedule for completing the tasks, a budget, and the period of the agreement. These items must
be in sufficient detail to provide a sound basis for the participating jurisdiction to effectively
monitor performance under the agreement.

HUD’s regulations at 24 CFR 92.505(b) state that the requirements of sections 84.40 through
84.48 of 24 CFR Part 84 are applicable to nongovernmental nonprofit subrecipients that receive
Program funds.

HUD’s regulations at 24 CFR 92.508(a) state that a participating jurisdiction must establish and
maintain sufficient records to enable HUD to determine whether it has met the requirements of
24 CFR Part 92. The participating jurisdiction must maintain records that demonstrate
compliance with the written agreements required by 24 CFR 92.504.

Chapter 4 of HUD’s “On Solid Ground – A Primer for Construction Managers on Designing and
Managing a Effective Program,” dated October 2002, states that specifications refer to the
detailed written requirements for materials, equipment, constructions systems, standards, and
workmanship. Specifications are included in the bid packages used to solicit contractors’ bids
and are the benchmark against which work is evaluated and compensated.

The City’s Program contract number 07-037, dated February 12, 2007, with Flint Project stated
that the City was providing Flint Project $150,000 in Program funds to provide housing
rehabilitation services for a six-unit rental rehabilitation project. Paragraph I.A.3. of the contract
required Flint Project to reevaluate the work specifications by the end of the first quarter of the
contract. Paragraph II stated that Flint Project would begin administering the project by
February 12, 2007, and complete the housing rehabilitation services by February 11, 2008.
Paragraph V.O. required Flint Project to obey and abide by all laws, rules, and regulations of the
Federal Government, State of Michigan, Genessee County, and the City. Paragraph VI.A.1.
stated that Flint Project agreed to comply with section 21 of Office of Management and Budget
Circular A-110 and maintain the necessary source documentation for all costs incurred.
Paragraph VI.C.4. stated that the City would make payments for eligible expenses incurred by
Flint Project, not to exceed actual cash requirements. The City executed change order number 1
for Program contract number 07-037. The undated change order increased the Program funds to
$200,000 for the project. On May 12, 2008, the City executed change order number 2 for
Program contract number 07-037. The change order revised the date on which Flint Project had
to complete the housing rehabilitation services for the project to June 30, 2009.

The City’s Program contract number 07-077, dated July 10, 2007, with Flint Project stated that
the City would provide Flint Project $200,000 in Program funds to provide housing rehabilitation
services for 18 single-family rental rehabilitation projects. Paragraph 2 stated that Flint Project
could not request disbursement of Program funds under the agreement until the funds were
needed for payment of eligible costs. Attachment A, paragraph 4, of the contract, required Flint
Project to comply with the applicable requirements of Office of Management and Budget Circular
A-110.




                                                  28
                                                    
Page 7 of the City’s standard operating procedures for subrecipients funded with Community
Development Block Grant, Emergency Shelter Grant, and Program funds, dated June 6, 2008,
required that reimbursement requests be for incurred costs rather than projected costs.

Section 1300.00, paragraph N, of Flint Project’s internal program guidelines, dated July 10,
2007; June 17, 2008; and February 3, 2010, states that Flint Project’s program manager will
assign a specification writer and request specifications and a cost estimate. Paragraph P states
that the specification writer will prepare a computerized work writeup and cost estimate.
Paragraph R states that Flint Project’s program director will determine whether the work items in
the work writeup conform to purposes of the grant. Paragraph S states that if the project is
funded by the City, Flint Project’s program coordinator will set an appointment with the City’s
Department to review the specifications and cost estimate and give approval to put out to bid.
Paragraph T states that a viable bid must be within 15 percent (plus $201) of the specification
writer’s cost estimate. If it appears that the specification writer missed something, the program
director will meet with the specification writer to review the specification writer’s costs. If the
specification writer’s costs are correct, the job is put out for bid again if the costs are over 15
percent (plus $201) of the cost estimate. Paragraph AA states that the program coordinator will
hold the preconstruction meeting with the homeowner, contractor, specification writer, and
City’s Department to review the specifications and to establish and document the date for the
contractor to begin construction work.

Finding 2
HUD’s regulations at 24 CFR 92.2 state that project completion means that all necessary title
transfer requirements and construction work have been performed; the project complies with the
requirements of 24 CFR Part 92, including the property standards under 24 CFR 92.251; the final
drawdown has been disbursed for the project; and the project completion information has been
entered into HUD’s system.

HUD’s regulations at 24 CFR 92.203(a) state that a participating jurisdiction must determine
whether each household is income eligible by determining the household’s annual income.
Section 92.203(a)(2) states that a participating jurisdiction must determine households’ annual
income by examining source documentation evidencing households’ annual income. Section
92.203(d)(1) states that a participating jurisdiction must calculate a household’s annual income
by projecting the prevailing rate of the household’s income at the time the participating
jurisdiction determines the household to be income eligible. Section 92.203(d)(2) states that the
participating jurisdiction is not required to reexamine a household’s annual income at the time
the Program assistance is provided unless more than 6 months has elapsed since the participating
jurisdiction determined that the household qualified as income eligible.

HUD’s regulations at 24 CFR 92.502(d)(1) state that complete project completion information
must be entered into HUD’s system or otherwise provided within 120 days of the final project
drawdown. If satisfactory activity completion information is not provided, HUD may suspend
further activity setups or take other corrective actions.




                                                29
                                                  
HUD’s regulations at 24 CFR 92.503(b)(2) state that any Program funds invested in a project
that is terminated before completion, either voluntarily or otherwise, must be repaid by a
participating jurisdiction in accordance with section 92.503 (b)(3). Section 92.503(b)(3) states
that if the Program funds were disbursed from the participating jurisdiction’s treasury account,
the funds must be repaid to the participating jurisdiction’s treasury account. If the Program
funds were disbursed from the participating jurisdiction’s HOME trust fund local account, they
must be repaid to the participating jurisdiction’s local account.

HUD’s regulations at 24 CFR 92.508(a) state that a participating jurisdiction must establish and
maintain sufficient records to enable HUD to determine whether it has met the requirements of
24 CFR Part 92. The participating jurisdiction must maintain records that demonstrate

      Each household is income eligible in accordance with 24 CFR 92.203 and
      Compliance with the applicable uniform administrative requirements at 24 CFR 92.505.

The City’s Program contracts with Flint Project required Flint Project to obey and abide by all of
the laws, rules, and regulations of the Federal government, the State of Michigan, Genesee
County, and the City of Flint applicable to the performance of the agreement. Further, the
contracts stated that Flint Project agreed to follow the requirements in Office of Management and
Budget Circular A-110 and City-endorsed requirements regarding the procurement of goods and
services using Program funds. All procurement transactions were required to be conducted in a
manner that provided maximum open and free competition consistent with applicable
requirements. Procurement procedures were not to restrict or eliminate competition.
Page 2 of the City’s standard operating procedures for subrecipients funded with Community
Development Block Grant, Emergency Shelter Grant, and Program funds, dated June 6, 2008,
required all procurement activities to comply with all requirements contained in section 40 of
Office of Management and Budget Circular A-110. Page 4 stated that for rehabilitation and new
construction contracts over $25,000, bids were to be advertised in the legal notices section of the
Flint Journal, at a minimum, and the bids were required to be advertised at least 5 days before the
due date of the bids. The bid advertisement was required to be published at least 1 weekend day.
Page 5 required a subrecipient to obtain at least three compliant bids for each procurement
transaction.




                                                30
                                                  
